IN THE SUPREME COURT OF THE UNITED STATES

No. 20-490
DAMIEN FREEMAN,
Petitioner,
Vv.
LYNEAL WAINWRIGHT,
Respondent.
CERTIFICATE OF SERVICE

I, Rishi R. Gupta, a member of the Bar of this Court, hereby certify that on
December 8, 2020, I caused three copies of the Reply Brief for Petitioner in the
above-entitled case to be served by email on the following counsel of record:

Benjamin Michael Flowers

Ohio Attorney General Dave Yost

30 E. Broad St.

Columbus, Ohio 43215
Benjamin.Flowers@ohioattorneygeneral.gov
(614) 466-8980

Counsel for Respondent

I further certify that all parties required to be served have been served.

Bin Dah
Rishi R. Gupta

Covington & Burling LLP

One CityCenter

850 Tenth Street, NW
Washington, DC 20001

(202) 662-6000

Counsel for Petitioner Damien Freeman
